IDENT/IAFIS Integration Status Report
Status of IDENT/IAFIS Integration
Report No. I-2002-003
December 7, 2001
TABLE OF CONTENTS
TRANSMITTAL LETTER
BACKGROUND
The INS'S Automated Biometric Fingerprint Identification System (IDENT)
The FBI'S Integrated Automated Fingerprint Identification System (IAFIS)
INTEGRATION OF THE FINGERPRINT SYSTEMS
Early Discussions
Deployment of IDENT
Justice Management Division Report - 1995
Justice Management Division Report - 1998
The Resendez Case and the Justice Management Division Integration Implementation Plan
Justice Management Division Studies
Operational Impact Study
Engineering/System Development Study
Criminality Study
Integration Plans
Previous Integration Plan
Current Plans for Integration
CONCLUSION